<html>
<title> - PERFORMANCE MANAGEMENT AND CONGRESSIONAL OVERSIGHT: 380 RECOMMENDATIONS TO REDUCE OVERLAP AND DUPLICATION TO MAKE WASHINGTON MORE EFFICIENT</title>
<body><pre>[Senate Hearing 113-68]
[From the U.S. Government Publishing Office]



                                                         S. Hrg. 113-68
 
                       PERFORMANCE MANAGEMENT AND
                      CONGRESSIONAL OVERSIGHT: 380
                   RECOMMENDATIONS TO REDUCE OVERLAP
                        AND DUPLICATION TO MAKE
                       WASHINGTON MORE EFFICIENT
=======================================================================


                                HEARING

                               before the

                              COMMITTEE ON

               HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS

                          UNITED STATES SENATE

                    ONE HUNDRED THIRTEENTH CONGRESS


                             FIRST SESSION

                               __________

                              MAY 22, 2013

                               __________

        Available via the World Wide Web: http://www.fdsys.gov/

                       Printed for the use of the

        Committee on Homeland Security and Governmental Affairs




                  U.S. GOVERNMENT PRINTING OFFICE
81-658                    WASHINGTON : 2013
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001



        COMMITTEE ON HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS

                  THOMAS R. CARPER, Delaware Chairman
CARL LEVIN, Michigan                 TOM COBURN, Oklahoma
MARK L. PRYOR, Arkansas              JOHN McCAIN, Arizona
MARY L. LANDRIEU, Louisiana          RON JOHNSON, Wisconsin
CLAIRE McCASKILL, Missouri           ROB PORTMAN, Ohio
JON TESTER, Montana                  RAND PAUL, Kentucky
MARK BEGICH, Alaska                  MICHAEL B. ENZI, Wyoming
TAMMY BALDWIN, Wisconsin             KELLY AYOTTE, New Hampshire
HEIDI HEITKAMP, North Dakota

                   Richard J. Kessler, Staff Director
               John P. Kilvington, Deputy Staff Director
                   Jonathan M. Kraden, Senior Counsel
               Kristine V. Lam, Professional Staff Member
              Garth A. Spencer, Professional Staff Member
               Keith B. Ashdown, Minority Staff Director
         Christopher J. Barkley, Minority Deputy Staff Director
     Catharine A. Bailey, Minority Director of Governmental Affairs
             Patrick J. Bailey, Minority Associate Counsel
                     Trina D. Shiffman, Chief Clerk
                    Laura W. Kilbride, Hearing Clerk



                            C O N T E N T S

                                 ------                                
Opening statements:
                                                                   Page
    Senator Carper...............................................     1
    Senator Coburn...............................................     1
    Senator Begich...............................................    16
Prepared statements:
    Senator Carper...............................................    37
    Senator Coburn...............................................    41

                               WITNESSES
                        Wednesday, May 22, 2013

Hon. Eugene L. Dodaro, Comptroller General of the United States, 
  U.S. Government Accountability Office; accompanied by Cathleen 
  A. Berrick, Managing Director, Homeland Security and Justice, 
  U.S. Government Accountability Office
    Testimony....................................................     7
    Prepared statement...........................................    45
    Response to post-hearing questions for the Record............    82
Chart referenced by Senator Carper...............................    40


                       PERFORMANCE MANAGEMENT AND

                      CONGRESSIONAL OVERSIGHT: 380

       RECOMMENDATIONS TO REDUCE OVERLAP AND DUPLICATION TO MAKE


                       WASHINGTON MORE EFFICIENT

                              ----------                              


                        WEDNESDAY, MAY 22, 2012

                                     U.S. Senate,  
                           Committee on Homeland Security  
                                  and Governmental Affairs,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10:03 a.m., in 
room 342, Dirksen Senate Office Building, Hon. Thomas R. 
Carper, presiding.
    Present: Senators Carper, Begich, and Coburn.

              OPENING STATEMENT OF CHAIRMAN CARPER

    Chairman Carper. Good morning, everyone. The hearing will 
come to order.
    I am going to depart from our script. I just got a brief 
update from Senator Coburn, who just returned late last night 
from Oklahoma where they have gone through a very tough time, 
still going through a very tough time, and I am just going to 
ask that we begin this morning with just a moment of silence 
and thinking of the folks who have lost their lives and the 
families who are struggling through a very bad situation. So if 
we could just start that way. [Pause.]
    Thanks very much. Dr. Coburn, would you like to lead off.
    Senator Coburn. I would be happy to.
    Chairman Carper. And if you want to give us a little update 
on Oklahoma, that would be good, as well.

              OPENING STATEMENT OF SENATOR COBURN

    Senator Coburn. Oklahomans are going to do fine. We had a 
tragic loss of life. The material things can be replaced, and 
we will. We are a hearty folk and we know how to deal with 
situations like this. We have done it before.
    The greatest thing I saw yesterday were about $25 million 
in contributions from Oklahoma companies and other people 
throughout the country, which is the way it should work. We 
have neighbor helping neighbor, not just in Moore, Oklahoma, 
but across the country. It actually is more effective. It works 
better. It benefits those giving as well as those receiving. So 
I am thankful. It makes me proud to be an American when I see 
that kind of stuff and even prouder to be an Oklahoman.
    Let me just welcome Gene Dodaro. I cannot say enough for 
the staff at the Government Accountability Office (GAO).
    In 1909, the Washington Post wrote a story that the 
government was spending thousands of dollars unnecessarily, 
that work was being duplicated in various departments, and the 
introduction of some system was badly needed. The only problem 
now is it is tens of billions and we have not effectively 
changed it.
    GAO has outlined some $250 billion worth of duplications 
that occur annually that the Congress has truly not acted on. 
We have done, actually, one thing significant, and that is we 
have eliminated $6 billion a year in Volumetric Ethanol Excise 
Tax Credit (VEETC) blending. That is the only thing that we 
have done. You are gracious to say that we have done some 
things based on your recommendations, but as far as eliminating 
duplication, consolidating programs, and actually making a 
difference for the American people, the Congress is reticent to 
approach those things.
    And if you look at your own report, we have addressed 12 
percent of the areas. We have completed action on 22 percent. 
The Executive Branch has completed action on 22 percent. The 
Office of Management and Budget (OMB) has worked on 24 percent. 
Congress has done 20 percent of the things that you have 
recommended. But that does not include eliminating any 
duplication.
    And if I have any criticism of all of GAO, it is that the 
law states--the law that I authored and we passed--states that 
you are to make recommendations for eliminations, which you 
have never done. You have identified where the duplication is, 
but that is a powerful tool in the hands of Tom Carper and 
myself. When GAO says, here are some things that ought to be 
eliminated, and if we can take that, then we can actually make 
stronger the argument that we have the scholarship behind the 
great efforts at GAO.
    Our country is waiting and primed to burst into the 
greatest amount of growth our country has ever seen. There are 
a lot of reasons why we are not--the debt, the deficit. But the 
real reason is leadership. And I am thankful to have a Chairman 
of Tom Carper's status and capability to help us lead on these 
areas, and I am thankful that we have the leadership at GAO 
that has done the hard work over the last 3\1/2\ years, and I 
know it has been hard.
    I mean, we still do not know all the programs. We actually 
do not know what the definition of a program is, which is one 
of the problems. The other problem is, the agencies do not know 
how much they spend on programs. They cannot tell you.
    And so it is a management mess and to fix it requires good 
scholarship, but the most important thing it requires is great 
leadership. And my hope is that in my conversations with the 
President and with others in the Administration and with the 
facts that GAO arms us with, that we can actually make some 
great headway in terms of righting our ship.
    My colleagues always talk about fixing Medicare, which is a 
big problem, saving Medicare, saving Social Security, saving 
Medicaid, and we know that is where the big dollars in the out-
years are for the Baby Boomers, like myself and Tom Carper. But 
there is a lot in the rest of the government that is not 
efficient, that is wasted, that does not accomplish its end 
points, that has no metric, and we have no idea.
    One of the areas where we found one wind firm got the same 
grant from seven different grant programs within the department 
and nobody in any of the grant programs knew they were giving 
the same money to the same firm for the same purpose. So the 
right hand does not know what the left hand is doing.
    I would just sum up by saying, there is not a problem in 
front of us that we cannot fix. What we need is dedicated 
Members of Congress to get busy fixing it. My hope is that Tom 
Carper and I can have the influence in the Senate to try to 
approach and accomplish some of the waste. It is all good 
intentioned. There is no malignant thought behind what we are 
doing. But the point is, a lot of it is associated with 
stupidity and incompetence and no common sense.
    So, I, again, would praise the work of the GAO, and I know, 
Gene, it is not you. It is all those wonderful people that work 
for you. And I am truly appreciative of the efforts. We cannot 
do what we do without your expertise and we are very 
appreciative of that.
    Mr. Chairman, I would ask that my full statement be made a 
part of the record.
    Chairman Carper. Without objection. Thank you. And thank 
you for what you just said.
    Senator Coburn. And the other thing we ought to do is have 
this hearing again tomorrow, since we are so good at 
duplication. [Laughter.]
    Chairman Carper. OK. I just would say, I feel fortunate 
that Tom and I have been given this opportunity to lead this 
Committee at this point in time. I feel fortunate that you are 
serving not a 2-year, 4-year, or 6-year term, but how long is 
your term? What is it, 10?
    Mr. Dodaro. Fifteen years.
    Chairman Carper. Fifteen years. We very much look forward 
to continuing to work with you and your team.
    We have an opportunity to provide some really strong 
leadership here, bipartisan. I say to Dr. Coburn, if he and I 
can agree on something--and we agree on a lot--we can get a 
whole lot done, especially if we leverage our effectiveness by 
partnering with you and your team.
    So, we welcome you. We welcome all of our guests this 
morning.
    Our focus, as Dr. Coburn has indicated, is to examine GAO's 
latest overlap, duplication, fragmentation report and the 
Administration's implementation of the Government Performance 
and Results Modernization Act (GPRA). My thanks, as well, to 
Dr. Coburn and to his staff and to my own staff, for their help 
in putting this hearing together and for his 2010 amendment 
that originally tasked GAO with this important work.
    Before we turn to the topic of today's hearing, I want to 
welcome to the hearing a group of participants in, I believe, 
the Acquisition Career Development Program at the Department of 
Homeland Security (DHS). I am told this is a terrific program 
that is training the next generation of acquisition specialists 
at the Department and I want them to know--we want them to know 
that this Committee will be very supportive of the job they 
will be doing to make DHS a good steward of taxpayers' dollars. 
If you are here in the audience today and you are part of this 
program, would you just raise your hand. [Show of hands.]
    All right. Thanks. Welcome. It is good to see you all.
    I am also pleased to welcome members of GAO's International 
Auditor Fellowship Program to today's hearing. I believe there 
are 15 countries represented among this year's fellows. The 
program provides training to officials from other countries' 
auditing organizations and contributes to government 
accountability across the globe. I would just ask, are there 
folks here from that program today, as well? Would you raise 
your hand. [Show of hands.]
    It is great to see you all. Welcome.
    Particularly for our visitors, but for everyone else, as 
well, last month, the GAO released its latest report 
identifying some 17 areas where agencies may have overlapping 
objectives, are providing potentially duplicative services, or 
where government missions are so fragmented across multiple 
agencies or programs. The report also identified some 14 areas 
where opportunities exist to either reduce the cost of 
government operations or increase revenues.
    The issuance of this report completes GAO's 3-year 
examination of the Federal Government to identify major 
instances of overlap, duplication, and fragmentation. In the 
three reports, GAO has provided hundreds of recommendations for 
Congress and the Executive Branch that, if implemented, have 
the potential to reduce waste significantly and to make our 
government more efficient and provide better service.
    Some issues identified by GAO are relatively easy to fix. 
For example, in last month's report, GAO found that when the 
Department of Agriculture's Food Safety and Inspection Service 
began its catfish inspection program as mandated in the Food, 
Conservation, and Energy Act of 2008, the program will be 
performing the same work already conducted by the Food and Drug 
Administration (FDA) and by the National Marine Fisheries 
Service. The President's Fiscal Year 2014 budget, as well as 
legislation introduced in both the House and Senate, would 
eliminate the duplicative programs and could potentially save 
taxpayers millions of dollars annually.
    Unfortunately, most of the issues discussed in GAO's three 
reports are much more complex and much more difficult to 
resolve. The issues cut across various departments and 
longstanding Federal programs that have entrenched 
constituencies and, in many cases, provide the public with 
much-needed services. Addressing these issues will require 
sustained leadership and congressional oversight. It is time, 
then, for Congress and the Executive Branch to roll up our 
sleeves and get to work addressing these issues.
    Each Committee in the House and Senate should be using 
these reports as a roadmap to help plan their oversight of this 
session. I can tell you, that is what we are doing in this 
Committee. To help us in this task, GAO has also created an 
action tracker to monitor the progress that has been made by 
the Executive Branch and by Congress to address these issues 
that GAO examined in its first two duplication reports.
    Unfortunately, as Dr. Coburn has indicated, results have 
been mixed. For example, the Executive Branch partially or 
fully addressed approximately 80 percent of GAO's 
recommendations while Congress partially or fully addressed 
only 32 percent. I would just say to my colleagues here in 
Congress and our friends in the Executive Branch that we can 
and must do better if we are to walk the walk and not just talk 
the talk.
    At a time when we are fighting to create jobs and grow our 
economy while also grappling with historic budget deficits, the 
American people deserve a government that is smarter and more 
effective and efficient with its tax dollars that they entrust 
us with.
    In addition to examining the issues identified in the new 
report, another goal of today's hearing is to examine how the 
Government Performance and Results Modernization Act, signed 
into law in 2011, can help Congress and the Executive Branch 
address inefficiencies, poor performance, and overlap, 
duplication, and fragmentation across the Federal Government. 
In all three of its reports, GAO highlighted how effective 
implementation of the Government Performance Act could help 
Congress and Federal agencies do that.
    And I want to say, when we passed this legislation, I was 
not fully aware of the potential here, and we just have to make 
sure we do not waste that potential.
    The Performance Act established a framework for performance 
management, for goal setting, and transparency. This improved 
transparency is something Dr. Coburn has pushed for since he 
came here. This improved transparency is desperately needed in 
the Federal Government where in so many areas neither Congress 
nor the general public know everything that Federal agencies 
are doing or how much programs cost. Let me just give you an 
example.
    I think in GAO's 2011 report, you identified some 44 
Federal employment and training programs that potentially 
overlap. GAO then examined the three largest programs and found 
that it was impossible to determine the extent to which 
individuals receive the same services from these programs. GAO 
was unable to do its work because the agencies lacked good 
information about their programs themselves, including basic 
funding and performance information.
    As a recovering Governor, I know that you cannot manage 
what you cannot measure, and that is why the successful 
implementation of the Performance Act is so important. The Act 
requires agencies to set short-term priority goals, to 
continuously evaluate whether these goals are being met, and to 
address any problems that arise. This should help agency 
leadership identify low-performing programs and come up with 
solutions.
    A few weeks ago, this Committee held a hearing on improper 
payments, something that Dr. Coburn and I have worked on for 
years with your help. The reason I bring it up today is that 
what we have done with improper payments, working with the 
Administration and a lot of others in the Executive Branch, is 
really similar to what I think our Committee needs to do with 
the Performance Act. On improper payments, we have been like a 
dog with a bone. And while improper payments are still high, 
they have come down a lot and we need to keep the pressure on, 
to keep the spotlight on. Improper payments are heading in the 
right direction, and that is down, but this has not happened by 
accident, and if we are going to continue to make progress, it 
is going to be because of our continued collective vigilance.
    Agencies have done an adequate job in implementing certain 
parts of the Performance Act, such as setting attainable short-
term goals, giving quarterly progress reports on whether they 
are moving toward achieving those goals. However, there is a 
lot of work that still needs to be done to realize the full 
potential of the Act and we plan on using this Committee to 
fulfill our part of Congress' role in that shared effort.
    And finally, while this report is often referred to as the 
Duplication Report from GAO, there are some significant savings 
that GAO has identified in the second part of each of these 
three reports, including several areas under this Committee's 
jurisdiction. These saving opportunities touch on areas such as 
contracting, cloud computing, and ways of improving agency 
management, like information systems. I am interested in 
hearing from the GAO about what oversight this Committee should 
be doing in these areas, as well.
    And with that having been said, I am going to again welcome 
Gene Dodaro before us today, someone we have worked with for 
years, and just to say it is a joy to do that. I always look 
forward to your appearance and your testimony and to the 
opportunity to have just a real good conversation with you 
today.
    I note that the guy who was supposed to be your sidekick, 
Danny Werfel, if we had to pay these guys by the appearance, we 
would run the Federal Government debt even higher, but you all 
have been terrific. Danny has a new job. He has been tapped by 
the President to be the Acting Commissioner of the Internal 
Revenue Service (IRS). I do not know what he did to deserve 
that, but it must have been something really bad.
    But we appreciate your willingness today to speak out of 
both sides of your mouth, once for you and then once for Danny, 
and see if we cannot make some more progress here. Welcome. 
Your whole statement will be made a part of the record and then 
we will have the opportunity to ask questions. Dr. Coburn.
    Senator Coburn. Yes. I just was going to comment that the 
reason Danny Werfel, I think, was chosen is because he has 
demonstrated integrity in everything he has done in the Federal 
Government. My hope is that he is there for a short period of 
time and back where we can use him in a better way. So I hope 
that is not a temporary permanent transfer and that he comes 
back, because he really has a base of knowledge that very few 
people have and has a common sense approach. So I am glad he is 
there for a short period of time, but I yearn for the day that 
he returns.
    Chairman Carper. I am Tom Carper and I approve this 
message. [Laughter.]
    Gene Dodaro, please proceed.

 TESTIMONY OF HON. EUGENE L. DODARO,\1\ COMPTROLLER GENERAL OF 
   THE UNITED STATES, U.S. GOVERNMENT ACCOUNTABILITY OFFICE; 
ACCOMPANIED BY CATHLEEN A. BERRICK, MANAGING DIRECTOR, HOMELAND 
  SECURITY AND JUSTICE, U.S. GOVERNMENT ACCOUNTABILITY OFFICE

    Mr. Dodaro. Good morning, Mr. Chairman, Dr. Coburn.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Dodaro appears in the Appendix on 
page 45.
---------------------------------------------------------------------------
    Before I start my statement, Dr. Coburn, I first want to 
express my condolences and best wishes on behalf of myself and 
all of our colleagues in GAO on the recent tragic events in 
Oklahoma to you and the people of Oklahoma. So, best wishes.
    With regard to our most recent report, as has been noted, 
we identified 31 new areas. Seventeen dealt with overlap, 
duplication, and fragmentation. I will mention three examples 
quickly.
    First, at the Department of Defense (DOD), we noted 
camouflage uniforms for ground combat. Before, the Department 
had only two, one for desert and one for woodland. Now, they 
have seven additional uniforms, service-specific. They are 
missing opportunities, we estimate, to save up to $82 million 
by joint purchases and going to common agreements, but an 
important aspect of this, also, in addition to the savings, is 
they are not ensuring equivalent level of protection for joint 
operations for the service members. So this has potential. We 
have made recommendations to save money and ensure equivalent 
protection.
    Second, in the Medicaid Integrity Program we noted they had 
two contractors, one to review the contracts or the State 
payments to identify targets for audits, and then another 
contractor to go in and do the audits. We said, you do not need 
two. One will do. So in this case, I am happy to report, too, 
they recently decided not to extend the contracts for the 
auditors to do the review work, and that will save at least $15 
million. So that is one area that has been eliminated since our 
report has been issued.
    The other area is geospatial investments. There are 31 
different departments and agencies that purchase geospatial 
data. This is one where we did not even have to do a lot of 
digging. They admitted on their own they are making duplicative 
purchases in a number of areas, and this is an area where there 
is an agency group already, an interagency group, focused on 
trying to do this. But they are not implementing the policies 
and recommendations of the group and OMB does not have enough 
visibility through the budget process and proper reporting to 
spot the duplicative investments. So we have made 
recommendations to OMB and also to this interagency group to 
improve that coordination.
    Now, in the 14 areas where we identified cost savings and 
opportunities, there are two examples I will give. First is the 
Medicare Advantage Quality Demonstration Program. This program 
is rewarding average performers. It does not have a good basis 
of comparison to know whether things are being improved. We 
have even questioned the legal basis on which they have 
implemented this program, which is different than the 
demonstration program that was approved by the Congress in the 
Patient Protection and Affordable Care Act. Now, when we first 
made this recommendation to cancel the program--and this is an 
area where we said, this ought to be canceled--there were 
opportunities to save $8.3 billion. So far, action has not been 
taken, but the Congress still has the ability to stop the 
program for 2014. That would save $2 billion, according to our 
estimates.
    The other example I would give is strategic sourcing. We 
have done a lot of work for this Committee, most recently a 
report released on the fact that commercial enterprises save 
from 4 to 15 percent annually by leveraging their purchasing 
power. We found the Federal Government is not taking 
opportunities to do this more extensively. They have done some, 
but it is not the bulk of their purchasing. So there are 
billions of dollars that could be saved here. If you apply the 
4-percent to the amount spent on goods and services, that is a 
$12 billion savings just for starters, but I think there is 
more to be done in this area.
    Now, with regard to the areas we had recommended in 2011 
and 2012, there were 131 areas. As Dr. Coburn noted, 12 percent 
have been acted on, 66 percent partially, and 21 percent not. A 
couple notable examples. Dr. Coburn mentioned the elimination 
of the Ethanol Tax Credit that duplicated the Renewable Fuel 
Standard. That prevented multi-billion dollars in revenue 
losses.
    I would also point out the Moving Ahead for Progress in the 
21st Century legislation that the Congress approved, which did 
consolidate the Surface Transportation programs. We had pointed 
out there were over 100, so that has consolidated them and put 
more performance metrics in place. We have said for years, we 
were not measuring the performance of those activities. So I 
thought that was good, as well.
    Regarding the Administration, one of the things we had 
suggested--they had planned to extend the tours of military 
personnel in South Korea and send their dependents with them. 
We said, we do not think that is going to be a sustainable 
model for you. You need to do a business case. So they did the 
business case and they decided not to do that, avoided over $3 
billion in additional costs going forward.
    But there is much that remains to be done. We have 
recommended the elimination of the Catfish Office that you 
mentioned in the Department of Agriculture. They have estimated 
they would spend about $14 million to operate that program. So 
money could be saved, but importantly, people would not be 
subject to multiple inspections, either, in that case. And 
Congress has also given FDA additional authorities now to use 
risk-based approaches for doing those examinations.
    We have recommended the elimination of the Auto Recovery 
Office, which was set up to provide support for the communities 
affected by the problems with the three automakers. That is 
still going. We do not see any reason for that. They have not 
justified what the communities are gaining as a result of their 
activity, so we have recommended elimination of that office, as 
well.
    Now, since we have issued the report, there have been some 
other notable areas of progress. First, the House Oversight and 
Government Reform Committee has reported out this month a 
Federal Acquisition IT Reform Act, and part of that legislation 
would require an inventory of all the IT investments across the 
Executive Branch, and to spot duplicative investments there, as 
well. So we think that is good.
    Also, I would note that both of the bills marked up out of 
Committee so far for the reauthorization of the farm bill, both 
by the Senate Committee and the House Committee within the last 
couple weeks, have implemented elimination of the Direct 
Payment Program to farmers, which is one of the options that we 
recommended. The Congressional Budget Office (CBO) has 
estimated that would save $4.5 billion, starting in 2015.
    So we think there is some traction that we are continuing 
to get on this, but there is a long way to go, as both you, 
Senators Carper and Coburn, have pointed out. We are committed 
to continue to work with the Congress.
    Now, I would say a word about the GPRA Modernization Act in 
closing my opening statement. First, the Act does provide, I 
believe, a lot of opportunities. The original Act in 1993 
focused on individual departments and agencies, and it was 
needed because they were not developing strategic plans. They 
were not setting performance measures. But more and more 
activities need to be addressed across departments and 
agencies, and the Modernization Act of 2010 focuses on these 
cross-cutting efforts.
    The Administration has identified 14 areas of cross-cutting 
importance. The Data Centers consolidation effort is one of 
them. The Science, Technology, Engineering, and Mathematics 
(STEM) is another one where we identified over 200 programs. 
The employment and training programs, veterans' programs, all 
these programs really need oversight, and I think the Act could 
provide a platform for this Committee to conduct hearings on 
those cross-cutting goals. This Committee is well suited to be 
able to do that and I think there needs to be oversight.
    There is public reporting of the goals. GAO has a role in 
evaluating implementation of this Act. In fact, next month, we 
will issue our status report and what we are going to say is 
that the mechanics have been put in place. People have been 
given responsibilities. They are holding the quarterly 
meetings. But there is still little information to support the 
use of the performance measures for decisionmaking and there is 
room for improvement on the transparency in the public 
reporting of these results.
    And, also, there needs to be more consultation with the 
Congress. That was the other requirement in the Act, and we 
have seen little indication that there has been meaningful 
consultation so far.
    But we will be reporting in our final report on that. I 
would welcome the opportunity to come back and talk to you 
about the implementation of that Act in more detail, because I 
think unless there is serious congressional oversight, we are 
not going to see meaningful progress in the implementation of 
that legislation.
    So, thank you for the opportunity to be here today and I 
appreciate it and I will be pleased to answer questions.
    Chairman Carper. Dr. Coburn, I am always amazed how this 
guy comes and testifies. There is a great movie, ``Stand and 
Deliver.'' This guy sits and delivers, and without a note. I 
have said before, the one other person I saw do this in the 
time that we have been here was our current Supreme Court Chief 
Justice when he testified for days before the Judiciary 
Committee without a note and just did it all right off the top 
of his head. I admire the way you are able to explain stuff so 
that even the rest of us can generally understand what you are 
talking about. And again, I get all caught up in the jargon and 
it is just so refreshing.
    I want to talk about how we--first of all, just how we can 
maximize our effectiveness. You have the opportunity to look 
into the Executive Branch and, frankly, to look rather broadly 
across the Legislative Branch. Dr. Coburn and I hold hearings. 
Our Subcommittees hold hearings. Most of our Subcommittees just 
focus on investigations, and we do a lot at the full Committee 
level. But one of the things I almost always ask witnesses, 
whatever the issue is, if it focuses on inefficient spending, I 
always ask them to give us advice, like, what should we be 
doing more of, less of? We always, almost without exception, 
hear, do more oversight. Do more oversight.
    Just by sending out a letter, a rumor that we are going to 
have a hearing, we have asked GAO for a report, can lead to 
change. And the announcement of the release of the report, we 
key off of that in order to have hearings. We do oversight. The 
media provides some attention to it. It is effective.
    But just think about how we can be more effective. How can 
we be more effective, and just give us some good advice. You 
have done some, but just some more, particularly for this 
Committee, including the Senator from Alaska, who chairs one of 
our key Subcommittees who just joined us, as well. Give us some 
good advice.
    Mr. Dodaro. Yes, I would be happy to. In the short term, 
what I would suggest is there are some specific areas that we 
pointed out that this Committee is perfectly suited to tackle 
by itself, and then I will have some other recommendations on 
how you can work with some other Committees to deal with some 
of these issues.
    First, strategic sourcing. I think it is a governmentwide 
issue.
    Chairman Carper. You mentioned that. That is a good one.
    Mr. Dodaro. That has huge potential.
    Chairman Carper. Let me just ask you a question. I mean, I 
wrote that down. You said it has the potential for saving 
billions of dollars. We agree. And we are not doing that. And I 
would just ask, why? Why do you think we are not?
    Mr. Dodaro. Well, there has not been----
    Chairman Carper. Maybe, how can we change the incentives so 
that----
    Mr. Dodaro. Right.
    Chairman Carper [continuing]. The folks who are making 
these decisions are incentivized to do that.
    Mr. Dodaro. Yes. First, I would focus on six departments 
and agencies that spend about 80 percent or maybe higher of 
Federal procurement.
    Chairman Carper. OK. That is a good place to start.
    Mr. Dodaro. So I would focus on those six agencies.
    Chairman Carper. What would they be, DOD, Homeland 
Security----
    Mr. Dodaro. DOD, Homeland Security, Energy Department, 
NASA----
    Chairman Carper. Transportation?
    Mr. Dodaro [continuing]. Agriculture, and VA. I got them 
right. OK. So those six, I would focus on. I would have them 
set goals and I would have the Administration set a 
governmentwide goal. I would put it in law and have them report 
on those goals, and I would ratchet the goals up every year, 
and I would conduct oversight to make sure they are achieving 
those goals.
    This Committee and one of the Subcommittees did this in the 
personnel security clearance area. They held hearings. They 
forced goals. They put timeframes on it. And there were, I 
think, 12 hearings held. This was Senators Voinovich and Akaka. 
And, by gosh, they brought down the timeframes for clearances. 
There was top-level involvement by the Administration, OPM, 
OMB, DOD, the Director of National Intelligence (DNI), and they 
were able to get some results. So that is one example.
    Data Center consolidation is another area. We have pointed 
out the Administration has moved in that area and some of the 
centers have been consolidated, but it is not clear they are 
saving any money. They have to eliminate some of the legacy 
systems and the Administration is not measuring that. So that 
is another area that I think this Committee----
    Chairman Carper. Why do you think they are not?
    Mr. Dodaro. Well, first of all, they do not have a lot of 
good information on baseline data which makes it difficult to 
measure incremental change.
    Second, their incentives are backwards--because they think 
they are going to lose their budget and if they identify the 
savings, the appropriators will just cull the money out of 
their budget. So part of the problem is there are two 
fundamental incentives that are exactly the opposite of the way 
they should be in the government.
    One is, if you save money, you should be rewarded, not the 
perception that you are penalized by having your budget 
reduced. That is a powerful one.
    The second is, in order to kill a program, you have to 
demonstrate it is not working. People do not have to 
demonstrate that programs for which they are seeking funding 
are making a meaningful difference, and having empirical 
information to say that, yes, I can demonstrate this program is 
effective. Today, it is exactly the opposite of the way it 
should be. And that is one of the things I think congressional 
oversight could do.
    Now, the other suggestion I have for you, the President has 
made a proposal in the Science, Technology, Engineering, and 
Mathematics Engineering area to consolidate some programs, to 
realign them within the Education Department (DOE), the 
National Science Foundation (NSF), and the Smithsonian 
Institution (SI), but they are also proposing some new programs 
and some additional funding. So I think this proposal has some 
potential but it is a governmentwide issue with significant 
reorganization aspects. The Administration is making the 
proposal and I think congressional oversight could be done with 
this Committee and perhaps in conjunction with other 
Committees.
    Now, the last comment I would make is that one of the real 
reasons, I believe, why you do not see more meaningful progress 
in this area is the Administration is not postured to look 
across departments and agencies as much as it has to do to 
really effectuate changes. Congress has multiple jurisdictions. 
Most of these areas we have pointed out with a lot of programs, 
there are many Committees involved--different Committees that 
need to work together to find a way to do this. So there is no 
ready platform within the Executive Branch or the Congress to 
be able to do this.
    For example, we have recommended in the housing area they 
consolidate the Housing and Urban Development (HUD) housing 
program with the Agriculture lending programs. HUD is lending 
as much money in rural communities, more even, in some cases, 
than the Department of Agriculture. Agriculture is lending 
money in metropolitan areas. Those two programs could be 
combined, but there is no ready vehicle in either the Executive 
Branch or the Legislative Branch to make that happen.
    The same thing on teacher quality programs. Eighty-two 
programs, 10 different agencies. You just need to organize 
better in order to tackle those problems.
    And the other thing is that it is essential that this 
Committee provide oversight on the Government Performance and 
Results Act. One of our major handicapping items that we have 
had in making specific recommendations for elimination is you 
do not know in many cases which of these programs are working 
well and which are not because there is not enough objective 
performance information to be able to make those judgments. And 
so that is a major, major impediment to making greater progress 
in this area.
    And I just, after watching these programs be implemented 
over several decades now, without sustained congressional 
detailed oversight on these programs, I do not have high 
confidence that you will see tremendous results.
    Chairman Carper. Before I yield to Dr. Coburn for his 
questions and then to Senator Begich, they have heard me quote 
former Federal Reserve Vice Chairman Alan Blinder a number of 
times, and Tom may have been there when he testified a year or 
so ago before the Finance Committee, talking about the 800-
pound gorilla in the room on deficits is health care costs. If 
we do not do something to rein them in, we are doomed.
    And I asked him, I said, what should we do about it? And 
his response was, ``Find out what works and do more of that.'' 
And my rejoinder was, you find out what does not work and do 
less of that? He said, ``Yes.'' But that was great advice. 
Great advice.
    But the point you just made, if we do not know what works 
and if we are not measuring what works, we do not have the 
ability to make those judgments, and it is pretty hard to do 
more of that----
    Mr. Dodaro. Well, what I would suggest is that there are at 
least three fundamental reasons, I believe, that we have right 
now, and Dr. Coburn mentioned some of them.
    One is that we have added programs over the years, over 
decades in some cases, to other programs.
    But the other reason that has occurred is that we establish 
programs, let us say an employment training program to give 
training to people that are unemployed. And then all of a 
sudden somebody says, well, there is not enough attention being 
given to veterans, there is not enough attention being given to 
youth, there is not enough attention to Native Americans, and 
we create these additional programs.
    I think you can safely, even without a lot of information, 
consolidate the programs to eliminate the administrative 
overhead and set goals, now that you have better measures in 
GPRA, for the broad-based programs and make them operate 
effectively in those cases.
    So I think there are policy approaches and decisions that 
could be made even--I would not use the absence of performance 
information to not tackle the issues at this point. I think 
there are ways to do it and still protect the targeted groups 
that you are trying to help.
    Chairman Carper. Well, I am way over my time. Let me just 
mention one other thing before I yield to Tom. We have, 
throughout our Federal Government Executive Branch, we have 
what I call Executive Branch Swiss cheese. We have so many 
departments where there is--Homeland Security, I think, has 
about six senior positions that are either unfilled or filled 
by folks who are in an acting status. We have about six 
Inspector Generals (IGs), department IGs, that those positions 
are vacant across the Federal Government.
    And even in OMB, where we share jurisdiction over OMB, we 
worked together to get Sylvia Burwell, an excellent nominee, 
confirmed as OMB Director. We are going to try to get Brian 
Deese reported out of Committee later today. His nomination 
still has to get reported out of the Budget Committee. But OMB, 
you have Sylvia Burwell leading it and we have an, I think, 
acting person as the Deputy OMB Director. We have an acting 
person as the head of the management side of OMB. We have an 
acting person as the head of the Office of Information and 
Regulatory Affairs (OIRA), the regulatory side. And now Danny 
Werfel is being detailed over from his Comptroller job over to 
run the IRS.
    If we are interested in performance and actually for the 
Administration to do its job, there is nobody home.
    Mr. Dodaro. Right.
    Chairman Carper. And one of--well, there is somebody home. 
Sylvia is terrific. But we have to get a great team around her 
and find people to be IGs. It is not our job to find them to be 
IGs, although the Administration, I think, is willing to accept 
our ideas.
    The other thought I have, we have all these new people 
coming in as cabinet secretaries. Most of them cannot spell 
GPRA and a lot of them do not have any idea what it is. And one 
of the things we may want to consider doing is, I do not know 
if you would have hearings, roundtables, private meetings, just 
to say, this is important. You may not have focused on this, 
but we want you to. And the idea of actually inviting cabinet 
secretaries to come in, particularly maybe the six or so you 
mentioned where the dollar consequences are so great, to do 
really good oversight, not in a confrontational way, but just 
really good oversight, consistent oversight.
    I have taken too much time. Let me yield.
    Senator Coburn. Well, Gene, thanks again for your 
testimony. What percentage of the programs that you all have 
looked at over the last 3 years actually have a metric 
performance unit on them?
    Mr. Dodaro. It varies by area. For example, in the STEM 
area, over the 200-some programs, 66 percent of them have not 
had an evaluation since 2005. I think of the 47 employment 
training programs, only five had an evaluation since 2004. For 
the teacher quality programs, we found, that the Department of 
Education felt some of them were even too small to measure, and 
they had multiple funding streams going to individual teachers, 
so they could not tell which of the programs were more 
effective.
    So it is a serious issue, Senator, as you know, and so I--
--
    Senator Coburn. Why would we set it up to where you have to 
have an--why would we not design the--you know, here is the 
problem with Congress. Here is a program. We are going to put 
the metric on the program. You are going to have a continuous 
feedback loop on whether or not it is working. So you do not 
have to create a study to see if the program is working. You 
are going to know as you implement and run the program whether 
it is working because you have a metric as a part of it, which 
comes back to one of the biggest problems in Congress, is we 
leave way too much to the Administration. We do not get 
specific. And one of the reasons we do not get specific is we 
do not know enough about the issue, so we leave it up to those 
people who we think do.
    The other problem I have is there is no definition in the 
Federal Government of programs, and we need one. OMB cannot 
manage something if they do not know its--as a matter of fact, 
nobody in the country, nobody in this country knows all the 
government programs. Is that a true statement?
    Mr. Dodaro. That is actually true. I mean, part of the 
Government Performance and Results Modernization Act was to 
have OMB create the inventory. Now, their approach so far, and 
it is supposed to be released the end of this month----
    Senator Coburn. Right.
    Mr. Dodaro [continuing]. Is to let the agencies define the 
programs, which----
    Senator Coburn. Which is crazy.
    Mr. Dodaro [continuing]. Which is not going to work long-
term. And you are not going to be able to compare across 
departments and agencies.
    Senator Coburn. So how well is the GPRA Modernization Act, 
going to work if you do not have a definition of ``program''?
    Mr. Dodaro. It is going to be problematic.
    Senator Coburn. That is right. So what we have to have is a 
definition of what a program is----
    Mr. Dodaro. Yes.
    Senator Coburn [continuing]. Correct?
    Mr. Dodaro. Yes.
    Senator Coburn. All right.
    Mr. Dodaro. We were planning to wait to see what comes out 
at the end of this month and then take a detailed look at it 
and see if we can make recommendations to make it more 
comparable across government, because if you do not have that, 
you are not advancing the ball very far.
    Senator Coburn. Would you disagree with the concept that I 
have tried to put forward--I have not been successful--that 
before Congress creates a new program, they ought to check to 
see if it is going to duplicate an existing program out there?
    Mr. Dodaro. No, I do not disagree with that. I think it 
would be a good idea.
    Senator Coburn. It is amazing. I cannot get that passed in 
the Senate. That is common sense.
    I would also--let me take time to compliment the 
Administration. I actually think the Administration pays 
attention to the work you do, and President Obama and his team 
have made lots of great recommendations in their budgets. I do 
not necessarily agree with their numbers in their budgets, but 
a lot of the detailed policy stuff, they are paying attention 
to you, Gene, and they are trying to change some of this stuff 
and we need to give them credit for that effort, even though a 
lot of it is not going to be effective.
    The other thing I would do is praise the House. They passed 
the SKILLS Act, which consolidated, I think, 36 of the job 
training programs into six, put metrics on every one of them 
and designed what they were, and we cannot even get that 
through the Health, Education, Labor and Pensions (HELP) 
Committee here. There is no effort. We have met the enemy and 
the enemy is us, because we will not do our work.
    The other problem with GPRA that I see is performance 
metrics only work if you know all the programs so you can make 
a comparison. And if you do not know all the programs, you have 
some out there being measured and some not.
    The other thing is, some say that the problem is breaking 
down silos. What you have demonstrated is that we need to 
eliminate some of the silos, not just break them down.
    So this is a massive problem. Nobody can put their hands on 
it completely and be all knowledgeable about it.
    You mentioned the job training programs. Here is the 
detail. We have 47 programs for non-disabled individuals. We 
have 50-some for disabled individuals. And only 5 of the 47 job 
training programs that you all surveyed had an impact study 
completed within the last 9 years. So only five do we know 
anything about, and the results were not very encouraging from 
the ones that we do know about. When you look at it, what your 
statement was, ``Little is known about the effectiveness of 
most of the programs in this area.''
    So we are throwing $19 billion out there every year for job 
training programs and your statement is there is little known 
about the effectiveness of most of these programs. That would 
say to me that Congress ought to get busy on this one area to 
try to attack and tackle some performance metrics in terms of 
job training.
    We actually looked at--you have read our study on Oklahoma. 
We looked at all the Federal job training programs and then we 
looked at the ones run solely by the State with no Federal 
Government money. And what we found is the ones where Oklahoma 
is running them are actually highly effective at actually 
getting somebody a life skill to give them the capability to 
earn a living. And what we found on the Federal job training 
programs is they were highly ineffective, except we spend 20 
times more money on Federal programs in Oklahoma than we do 
State money, and yet we have 20 times the performance on the 
State dollars.
    So the American people have to ask us, what are we doing? 
How are we doing it? So what we are trying to do is build a 
base of knowledge, and too many times, we do not want to know 
the answer. That is my frustration with my colleagues in the 
Senate. Why would we not want to know before we put a new bill 
on the floor of the Senate whether or not it is going to 
duplicate something that is already running? I mean, that is 
just good old Oklahoma common sense. Before you spend another 
nickel on something, one is how is the nickel that you are 
spending already doing, and two 2, are you duplicating 
something?
    In this year's duplication report, you devoted about nine 
pages to the GPRA Modernization Act, but you do not make a case 
that it is actually the solution for the problem of 
duplication.
    Mr. Dodaro. It is not the sole solution. It is only a tool.
    Senator Coburn. Yes. We have to produce a list of programs. 
The programs have to have metrics on them. You would agree with 
that?
    Mr. Dodaro. Oh, definitely.
    Senator Coburn. Is there any program in the Federal 
Government that should not have a metric on it?
    Mr. Dodaro. I cannot think of one.
    Senator Coburn. All right. Quarterly reviews--if Congress 
was doing its job, we would say, well, how are you doing on 
this, and every quarter, we would ask, tell us what the 
performance is.
    One other thing I wanted to mention from your opening 
statement, we are going to have a new General Service 
Administration (GSA) Director, and when we looked at this in 
2005 and 2006, Tom and I actually looked at it, what we found 
was--the Federal Government spends more money on everything 
than anybody in the world and we ought to get the best price. 
And you know what? We do not. Consolidating, looking at new 
ways of how you purchase things, I would love for you to have a 
sit-down with the new GSA Director, and hopefully he will 
invite you over, so that you can show, here is where you are 
not performing.
    Then we give the flexibility to buy the most expensive 
rather than the least expensive to anybody. You do not have to 
buy the best deal for the American public if you are a Federal 
employee purchasing something. You can buy top-of-the-line, if 
you want. It is an internal justification.
    The House of Representatives has a duplication rule they 
passed. You have to demonstrate you are not duplicating 
something before you put a bill on the floor in the House. 
Would you think that would be a good rule for the U.S. Senate?
    Mr. Dodaro. Yes.
    Senator Coburn. All right. Where else--I guess I am over 
time. We will come back. I will yield to my colleague. I am 
sorry.
    Chairman Carper. Senator Begich, good to see you.

              OPENING STATEMENT OF SENATOR BEGICH

    Senator Begich. Thank you very much.
    I want to add to what Senator Coburn just said there. Here 
is an example, even with the Senate. I found this so amazing. I 
am in the real estate business, have been for many years, so 
when it was time to get State office space, they tell me, yes, 
you can have some. You get 5,000 square feet. And I said, 
great. I will go figure that out through my Statewide 
situation. And then I say, how much can I pay, or what is my 
limitation? There is not a limitation. The only limitation is 
how many square feet you get, which means you can get in an 
``A'' quality building.
    It is the most ridiculous thing I have ever seen from the 
real estate business for us as the U.S. Senate to have that as 
a policy. It is about square footage, not about the price. It 
goes contrary to exactly what Senator Coburn is trying--I mean, 
it is unbelievable.
    I mean, so, of course, you get space, and I spent 9 months 
trying to get an additional 100 square feet within my 5,000 
square feet working through GSA. In the private sector, if I 
would have been negotiating a 100-square-foot lease and it took 
me 9 months, I would be fired. I would not even exist in the 
business, because you only make 3 percent on that after a 5-
year deal. It is nothing.
    So I am--or, as I walk home every day and I walk past the 
House page building that is now empty--it is a beautiful 
building, It is right on E Street and First, a beautiful 
building. It is empty because they killed the page program 2 
years ago and it sits there and we spend money maintaining this 
beautiful building. My personal view is it should just be 
opened up and rented out to the House members that cannot get 
space in this town for apartments. At least we make some money 
on it, is my personal view.
    But I digress only because you got me thinking about this 
in a longer issue.
    You mentioned the STEM, and I agree. I mean, I think it is 
209 programs----
    Mr. Dodaro. Right.
    Senator Begich [continuing]. Thirteen different agencies. 
The lack of measurement or metrics on the success of this is 
amazing to me when we are trying to compete in the world 
markets on STEM. So I want to thank you for kind of pointing 
out in your multiple reports, in your report with many 
different ideas. I mean, this was one example.
    I remember I tried to do an employment program, take all 
the veterans' employment programs and put them in the VA. It 
seemed kind of logical. The minute I suggested that, I had more 
people come from the Department of Labor to my office than I 
ever imagined worked there to explain to me why it was such a 
bad idea.
    This may sound counterintuitive, but I want to get your 
thoughts. I am a former mayor. Would not a little more 
flexibility to the Administration help to make these decisions 
on consolidation and elimination? And we should do our job, 
which, what I have noticed here in 5 years, this Committee, 
actually, I am finding it very interesting and exciting. To be 
frank with you, it was not my request to be on the Committee a 
few years ago. It just was offered and I said, sure. But what 
Senator Carper is doing and Senator Coburn is doing is 
oversight, which is really the role of the U.S. Senate and U.S. 
House.
    Would it not seem logical to give more flexibility to the 
Administration to say, look, you want to consolidate these 209 
programs? You want to do this? Then what we do is quarterly, or 
whatever the time table, we do oversight, not crisis oversight, 
which is what we do great around this place. When something bad 
happens, we are now going to try to over-correct and usually 
screw it up even more.
    So, would that not seem to be logical? I know it is 
counterintuitive, because you are saying the Administration can 
have more flexibility, but then if you add in there that there 
is a regular process of oversight, that could make sure the 
correction is there and the checks and balance are there. Give 
me your thoughts on that.
    Mr. Dodaro. Well, I think--there are a couple different 
approaches. The Executive Branch has not been given that 
authority since the Reagan Administration.
    Senator Begich. Right.
    Mr. Dodaro [continuing]. And the last approach, this 
Administration proposed was saying, if you give us the 
authority, then we will tell you what we are going to submit. 
In the STEM area now, they have at least put a proposal on the 
table that could be discussed and deliberated.
    Senator Begich. Right.
    Mr. Dodaro. My experience has been over the years that 
while you might want to give some flexibility, Congress needs 
to be careful in ceding its constitutional authorities in this 
area, and so I would exercise a little bit of caution----
    Senator Begich. Sure. Good point.
    Mr. Dodaro [continuing]. In doing that, but there has to be 
more consultation. Part of the GPRA Modernization Act of 2010 
was a required consultation on performance goals. But the same 
thing on reorganization proposals, because if Congress is not 
brought in the development of the proposal and does not like 
it, even if the Administration has the flexibility to go 
forward, it will create other programs outside that structure 
over time.
    So I think in order for this to work well, there needs to 
be a consensus opinion on how to do it, Senator, it is a 
difficult issue, I grant you that, and it should be thought 
about, but it needs more dialogue.
    Senator Begich. Do you think--and I want to followup with 
the Chairman's question, or not question, it was more of a 
comment on some of these positions that we have had vacant 
running these operations--do you think that has an impact in 
agencies in trying to make some moves and doing some things 
differently?
    Mr. Dodaro. Oh, definitely. I mean, I think that----
    Senator Begich. Is it costing us money, do you think?
    Mr. Dodaro. Well, I do not know if it is costing money, but 
it is creating inaction in terms of trying to----
    Senator Begich. Which, by definition, that is going to have 
a cost.
    Mr. Dodaro. That is a cost.
    Senator Begich. I do not know if you can put a figure on 
it.
    Mr. Dodaro. Sure.
    Senator Begich. But it has an impact on operations, 
delivery of services----
    Mr. Dodaro. There is no question about it. I think that is 
a big problem.
    Senator Begich. Do you think--and I guess this is the 
question in a broader, and maybe you cannot answer this--I 
mean, the politics of trying to resolve some of these--like I 
said, every time I have mentioned something, some group comes 
out of the woodwork that I never knew existed. They are somehow 
some advocacy group. And part of it is this body has a problem 
saying no, right? Is that not what--I do not want to get you 
into politics here---- [Laughter.]
    I think that is what Senator Coburn was kind of saying. I 
mean, we have a problem saying no, even when we know we have to 
do something different here because it is not working well. 
Like, this whole idea you mentioned, which I agree with this 
whole idea of purchasing, is astonishing to me.
    The Municipality of Anchorage, where I was mayor, we teamed 
up with the State of Alaska to do joint purchasing. So they had 
an overall contract, open contract that we could get into, 
which we would get then the lowest price, because why? We are 
the platinum client. We actually write the checks and pay them. 
In the Federal Government, it is a little different. They write 
the checks and they print the money to pay them, but that is a 
different story. But the point is, we are platinum when it 
comes to any contractor.
    I guess I am struggling, and you have to, I guess, give me 
your thoughts, because you have been around a lot longer than I 
have, and that is if I had staff members, department heads, 
telling me they just cannot do this, I would fire them. I would 
say, no, this is the goal. Go do it. I do not need my local 
city council telling me. This just makes sense, to purchase 
things in--my simpler way to describe it, buying in bulk at the 
lowest costs per unit----
    Mr. Dodaro. Right.
    Senator Begich [continuing]. And using our purchasing power 
to do it. Am I missing something here?
    Mr. Dodaro. No, you are not missing anything. That is what 
should be done.
    Senator Begich. Is there a lack of leadership, do you 
think?
    Mr. Dodaro. Well, I think the problem starts even from the 
beginning in terms of how we budget in the Federal Government. 
A classic example is, unlike most entities, you would figure 
out how much you want to spend, how much revenue you are going 
to have, and then how much you would have to borrow. We do not 
do that up front.
    Senator Begich. You would have a capital budget. You would 
have an operating budget.
    Mr. Dodaro. Right.
    Senator Begich. You would actually see----
    Mr. Dodaro. Right now, we bifurcate. The debt ceiling issue 
is outside that process. The debt ceiling does not have 
anything to do with limiting spending.
    Senator Begich. Right.
    Mr. Dodaro. And it is an after-the-fact kind of decision 
made to pay bills, to borrow the money to pay the bills that 
have already been authorized. There is no up-front consequence 
of somebody saying, if we pass this set of appropriations, this 
budget for the Federal Government, we are going to have to 
borrow this amount of money. This is how much it is going to 
cost us. I mean, right now, debt held by the public is over 70 
percent of Gross Domestic Product (GDP). For a 40-year average, 
it is 39 percent.
    So I do not think people think about the consequences of 
the borrowing of the money and have that weigh into the 
decision on whether to fund a program. It is totally driven by 
whether there is a need there, and I think that is, as Senator 
Coburn pointed out, that basically people are trying to do the 
right thing. There is a need. They want to fill the need. But 
nobody understands how much it is really going to cost in order 
to fill that need and what is the cumulative cost to the 
Federal Government.
    And until that, becomes more crystallized in the 
decisionmaking, I think you are going to continue to see 
repeats of what we have seen in the past.
    Senator Begich. Very good. Thank you, Mr. Chairman. Thank 
you very much.
    Senator Coburn. [Presiding.] Thank you, Senator Begich.
    Let me answer the question for you bluntly. When the Senate 
was created, the whole thought of our founders is that the 
Senators would think long-term, not parochially. That is why 
they were appointed by their State legislatures. In other 
words, the goal was to have a balance of long-term thinking for 
the country, and what we are seeing now occur, and it has for 
some number of years in the Senate, is we have become just as 
parochial as the House is, and the House was meant to be 
parochial. And so we have lost the countervailing weights of 
slowing things down. Our Founders wanted it to be hard to 
change things, difficult to change things, because they 
realized--and we are seeing liberty diminish as the government 
grows, and that is the consequence. They spoke about it 
prophetically when they founded this country.
    And so, again, I will say, the problem is us, because just 
like you said, on the job training program, just to give you an 
example, you have very little demonstrated results in most of 
the job training programs, but they are defended harshly by the 
contractors that have the Job Corps programs and everything 
else, regardless of the fact that they have lousy outcomes. And 
it is because it is jobs. It is employment. It is votes.
    And so if we do not make that disconnect of real leadership 
in the Senate by each individual Senator doing what is the 
right thing for the country in the long term--not the short-
term political careers of the Members of Congress, but the best 
long-term thing for the country--what we do is we actually defy 
our own oath to uphold the Constitution.
    Gene, I want to ask you about another question. It is 
something I have thought about a lot. And I actually agree with 
you in terms of changing this motivation for our agencies. We 
ought to give them the responsibility and authority to make 
great decisions, and we ought to be very specific how we do 
that. But when they have done a great job, we ought to let them 
keep some of the savings. In other words, we ought to allow a 
certain percentage of the savings to revert to the agency under 
the Secretary to actually use in areas they think are best for 
their areas of responsibility and to reverse that motivation.
    Let me tell you a story about a commander at Altus Air 
Force Base. Last year, he saved $16 million below his budget by 
performing things in-house rather than contracting them 
outside. Great job. It was not hard. He just said, ``I know we 
are in a tight time. I am going to save the Air Force some 
money.'' And so here is a guy that took his own troops, and 
what they could do, they did. What they absolutely had to 
contract outside, they did. But they did it, and they did it 
for about a fifth of the cost of what their contracts would 
have cost.
    But he got no benefit out of that for Altus Air Force Base 
other than benefiting the country. What we should have said is, 
if you save $15 million, we are going to leave $5 million there 
for you to do other things and you create that kind of an 
incentive program that is within the math.
    That is all the more reason for us to have performance 
metrics, because if we are going to give increased flexibility, 
as Senator Begich suggests, and I think we should give some, 
you have to have a metric to show that it is actually--not one 
that can be gamed, not one that can be spun, where you actually 
have a metric where you can actually see what you are doing.
    I talk with a lot of business leaders and every year, their 
goal is to do more with less. I mean, that is how you widen 
margins. That is how you widen gross margins. That is how you 
widen net margins. That is how you get innovation. You set up a 
necessity to try to think things outside of the box to do it in 
a different way so you can actually accomplish something at a 
lower cost.
    We do not have much of that motivation in the Federal 
Government, and it is not that we do not have great employees, 
because we do. But we will not trust them with the ability to 
do that.
    Now, will there be bad actors? Yes. But the benefit of 
actually trusting Federal employees to do things right and then 
conducting the oversight to make sure it is happening and let 
them have the responsibility and some of the rewards that come 
with that. What would you think if we had a bill that allowed 
that? There is only one agency that gets to do that now, and I 
think that is the Treasury Department. They get to keep 
whatever money they do not spend and spend it wherever they 
want. But they get to keep it all. It does not go back to the 
Treasury. What are your thoughts on that?
    Mr. Dodaro. I think that it would be a great thing to pilot 
in a number of areas and make sure that it works effectively 
and there is a demonstrated formula for success. I think if you 
try to do it too broadly, that there will not be enough 
followup and it will be difficult to manage it well to get the 
right outcome and it could have unintended consequences.
    Senator Coburn. Well, you have to have metrics first.
    Mr. Dodaro. Right.
    Senator Coburn. You have to demand metrics everywhere 
first.
    Mr. Dodaro. Right.
    Senator Coburn. I mean, do you know any organization that 
is successful that executes a strategy that does not put a 
metric on the execution of that strategy?
    Mr. Dodaro. No.
    Senator Coburn. Yet, 95 percent of the Federal Government 
has no metric on its strategy.
    Mr. Dodaro. We definitely need to do more in that area. 
There have been some efforts in the past to do what you are 
talking about, and it has been a number of years now. One model 
was Performance-Based Organizations, and we tried that 
experiment.
    I will go back and look. We evaluated that and it did not 
really work effectively. I do not remember offhand what all the 
reasons were.
    Senator Coburn. Probably because you did not have a metric.
    Mr. Dodaro. Yes. Well, I do not remember. I will have to go 
back and I will look at that. I will send you a summary of how 
we evaluated that, why it did not work, and then in designing 
any future efforts, maybe we can figure out a way, working 
together, to try to do what you want to do but structure it to 
achieve success.
    Senator Coburn. Can you think of a way we can motivate our 
colleagues to take your recommendations and act on them? That 
is our biggest problem, obviously, from the chart I put up.
    Mr. Dodaro. Right. I have tried to meet with each of the 
Committees, and actually, our record is pretty good. About 80 
percent of our recommendations get implemented over a 4-year 
period of time. That has been pretty constant. So I try to meet 
with all the Committee chairs.
    I think we can maybe think of ways to increase our dialogue 
with the Committees, but until they have oversight and they 
focus on those areas, it is going to be somewhat limited. But I 
think with most of them, we have had good dialogue and they act 
on a lot of the recommendations.
    It is just some of the areas that cross multiple Committees 
where it is difficult to try to conduct oversight and implement 
recommendations I have testified in the past on some joint 
hearings with different Committees. I think that could provide 
more motivation, Senator, and I think that is important in some 
of these areas. So I would encourage that kind of dialogue with 
your Committee, which has broad jurisdiction--pick one area, 
whether it is STEM or teacher quality or something like that 
and work on it.
    Senator Coburn. Well, how many pieces of legislation have 
come out of the Congress in the last 3 years since you have 
been doing this review that we have asked for that have 
actually put a metric on the program?
    Mr. Dodaro. This Moving Ahead for Progress Act does not put 
a metric. It puts in process more requirements for metrics. So 
we will have to see how that works. I would have to go back and 
think about it. I cannot think of anything off the top of my 
head.
    Senator Coburn. I cannot, either, which is the problem.
    Mr. Dodaro. Yes.
    Senator Coburn. We continue to pass legislation. We 
continue to appropriate money. And every time you put real 
performance metrics on something, you get push-back. And so the 
real question is, we are not going to accomplish anything until 
we can actually measure what we are doing and assess what we 
are doing. And I would love your staff's thoughts on how we 
could maybe get that accomplished, because until you get 
metrics, until you know what you are doing, knowing whether 
what you are doing is working or not, you are not going to make 
the changes. And, of course, that is part of it. We actually 
lend a blind eye.
    You talked about cross-jurisdictional. The Education 
Workforce Committee on the SKILLS Act could only address 36 of 
the 47 job training programs. So they have consolidated down to 
6 those 36 with metrics, but it has not come out of the Senate. 
So here is a great answer to one of your recommendations, 
actually solving some problems, saving some money, and making a 
real difference in people's lives, and the Senate has not 
worked on it.
    How do we motivate? Could this Committee say, as you 
suggested, hold joint hearings with other Committees on a 
multitude of areas, or----
    Mr. Dodaro. I would suggest that. I think the other thing 
that is really going to motivate people is going to be the caps 
on discretionary spending. I mean, I just do not think that we 
are going to be--the financial pressures are enormous. I mean, 
my view is--in the out-years, our simulation showed just 
tremendous problems, and that we are going to exceed--absent 
changes in current policy, we are going to exceed debt held by 
the public as a percentage of Gross Domestic Product to go over 
100 percent. If you use current baselines, CBO's estimates 
extended by us will be 2034. And if health care spending is not 
controlled, it could be 2028.
    I mean, I think the fiscal pressures--if people understood 
the fiscal pressures in the future, that, to me, is part of the 
motivation. The second part of the motivation has to be to have 
a catalyst Committee to pull some of these Committees together 
to work jointly on the problems.
    I think if there is a focused attention on some of these 
areas, that you could get consensus in a much quicker manner 
than will ever happen absent that, but----
    Senator Coburn. Senator Begich described how we usually 
react in crisis rather than planning for the problems that are 
coming by doing affirmative things now rather than waiting 
until the fire is there.
    Do you know if he has additional questions?
    Mr. Dodaro. One other thing, Senator. My staff just let me 
know that we have been--and your point about incentives, that 
we have been supportive of agencies keeping some of the 
proceeds from the real estate sales to encourage them to get 
rid of this excess real estate----
    Senator Coburn. Right.
    Mr. Dodaro [continuing]. And we are seeing some bipartisan 
bills in the House to implement our recommendations in this 
area. So that is one area that I think this Committee could 
address. We are also getting a lot more questions from members 
on our overlap and duplication report than we ever had before. 
This year, I think, it is at an all-time high. I met with a 
couple of groups that are meeting together----
    Senator Coburn. Right.
    Mr. Dodaro [continuing]. Bipartisan groups working on these 
issues. So I am encouraged that we are getting many more 
questions. The first one we issued, you had a press release. 
But this year, many more. I think people understand the fiscal 
pressures and are looking for solutions, and we are trying to 
work with whoever wants to work with us to implement these 
recommendations.
    Senator Coburn. Well, I will just tell you that Speaker 
Boehner in the House, they are going to have over 200 oversight 
hearings based on your stuff, and they are ongoing now. So they 
are listening. So the question is, will it come out of the 
House and die over here?
    Thank you, Mr. Chairman.
    Chairman Carper [Presiding.] And our job is to try to make 
sure, with your help, that it does not.
    Dr. Coburn and our staffs have heard me talk about the 
culture in Federal Government. It is more of a culture of 
spendthrift, not a culture of thrift. And I think a lot in 
terms of how do we change incentives.
    I just walked out of the meeting here to talk with the CEO 
of a major food company in America. We talked for 5, 10 minutes 
about obesity and how can we further incentivize people to take 
personal responsibility for their own health care so they do 
not end up weighing 350, 400, 500 pounds and basically 
bankrupting Medicare.
    But part of it is to try to change the culture, to try to 
make sure that people know that it is not good for them to 
weigh 300, 400 pounds. It is not good for them. It is not good 
for our country. It is not good for Medicare. It is not good 
for our taxpayers.
    One of the things that we are trying to do is figure out 
how to change the culture, how to provide the changes in 
incentives so that our goals are aligned with the incentives 
that we are providing.
    I would like to, if I could use just a little humor here 
for a moment, I love to ask people who have been married a long 
time, Gene, I like to ask them, what is the secret? I was with 
a couple last night back in Delaware. They have been married 54 
years. And I said to the husband and wife, what is the secret 
for being married 54 years? And the wife said to me--she 
pointed to her husband and she said, ``He would tell you that 
the secret for being married 54 years is that he can be right 
or he can be happy, but he cannot be both.'' [Laughter.]
    One of the best answers I have ever heard, though--serious 
answer--was the two ``C''s, the two ``C''s, and that is 
communicate and compromise. Communicate and compromise. That is 
pretty good advice. Whenever I know somebody who is getting 
married, I send them a note if they are a friend and I always 
put those words of advice in there.
    That is also good advice for a dynamic, durable democracy, 
to communicate and to compromise. There is another ``C'', 
though, and my next question actually involves another ``C'' 
and the word is collaboration, and just to focus for a little 
bit on cross-agency collaboration, if I could.
    GAO released a report a couple of months ago, I think it 
was in February, that found that agencies are doing a pretty 
good job in implementing data-driven performance reviews to 
drive performance improvement, one of the main goals of GPRA. 
However, GAO also found out and told us that agencies are not 
involving other relevant agencies in these reviews. And given 
the nature of cross-agency priority goals, agencies clearly 
need to coordinate to make progress toward those goals. 
Interagency collaboration is also an important step toward 
achieving individual agency priority goals, breaking down 
government silos and trying to reduce some of the duplication 
we are talking about here today.
    Could you just take a minute or two and discuss with us how 
collaboration among agencies in performance reviews can help 
decrease or prevent overlap or duplication or fragmentation? We 
have been talking here earlier today about how we can work, 
this Committee, OMB, GAO, the Inspector Generals, and so forth, 
nonprofit groups, how we can collaborate among ourselves, but 
would you just talk with us a bit about collaboration among 
agencies in performance reviews with respect to duplication 
oversight and overlap.
    Mr. Dodaro. Well, first, it creates an awareness of the 
interrelationships. In many cases, like when we did the 
inventory of teacher quality programs at 10 agencies, nobody 
really knew what other agencies were doing. This is the issue 
of they know what they are doing, but they really are not 
aware. So the first thing is awareness that it is occurring in 
other agencies.
    Second is sharing of experiences and good techniques that 
have worked and could be effective.
    And third is getting joint metrics. I mean, part of the 
issue is that everybody, even if they have metrics, they are 
limited to output measures, not outcome. But there is no broad 
governmentwide goal that everybody is trying to achieve. 
Everybody is trying to achieve just little areas within their 
responsibility.
    But, you know, let me give you an example of how it does 
not happen and why it should happen more. In the High-Risk 
Areas. I agreed to have meetings with Jeff Zients and the 
deputies or the head of the agencies on the High-Risk List on a 
regular basis. I agreed to personally participate in those 
meetings as long as they got the top people in the agency to be 
there. It took us over 2 years to get a meeting with the 
disability community on all the programs across the Federal 
Government that do it. And when we finally had the meeting, it 
was the first time that there was ever a meeting of all the 
different agencies that were working on disability areas across 
the government.
    So, right now, in order for it to happen, agencies have to 
know about it in other agencies and then be able to work 
together and take the initiative. OMB really does not have the 
wherewithal and enough time and resources to make it happen and 
to ensure that it happens effectively. So, in my mind, you are 
relying on a lot of individual initiatives to be able to do 
this. There is really not an organizational structure to make 
sure it happens within the Executive Branch and that there is 
full accountability. So, I think many things get compromised 
out at the agency level rather than putting stretch goals in 
place and trying to reorganize things.
    So, it is a very important area to deal with, but there 
needs to be some leadership. And part of the problem we always 
see is when you have interagency groups working together, even 
if there is a chairperson of the group, they do not have any 
authority. They do not have good strategic plans.
    We have said this for this Food Safety Working Group, where 
we have identified that as being fragmented across the Federal 
Government. They meet. They have discussions. They share 
experiences. But they do not have--we have recommended that 
they put together a governmentwide performance plan to measure 
and have metrics and they have not done that yet.
    So you need a combination of encouraging collaboration at 
the agencies, but you need some mechanism to hold them 
accountable and to focus on it within the Executive Branch.
    Chairman Carper. A related question. You have already 
answered it to some degree, but I want to pose it anyway and 
see if you want to add anything further. But, staying with 
collaboration, what other benefits may an agency gain by 
involving other agencies in their performance reviews?
    Mr. Dodaro. Well, I think you can make sure that you get 
everybody to the table that is appropriate there and then they 
could work on joint strategies and ensure some joint 
accountability and get some dialogue going and perhaps share 
resources, save money. But one of the issues you can also do is 
get clarity on greater roles and responsibilities that the 
people have for working together. So there are a lot of 
benefits to collaboration. But my sense is that you need to 
have more oversight and accountability to get more benefits out 
of it long-term, other than just getting people together to 
enhance awareness.
    Chairman Carper. Just kind of sticking with the theme here, 
I am going to stay with it for just a little bit, but moving 
from collaboration to cross-agency priority goals. The GPRA 
Modernization Act requires, as you know, the establishment of 
Federal Government priority goals. OMB calls these cross-agency 
priority goals. But how can these efforts help improve 
coordination and collaboration of fragmented and overlapping 
programs?
    Mr. Dodaro. Yes. Well, the first thing is it requires them 
to set governmentwide goals, so that is No. 1. In many cases, 
those did not exist before. So that is probably the most 
important element of the cross-cutting goals. And then there is 
accountability that could be achieved in that level, but there 
has to be more dialogue. And then there are requirements for 
continual reporting by the President to the Congress about the 
priority and I would encourage oversight over this.
    Right now, it is in the formative stages where we are 
trying this new model across government and the President has 
proposed some goals. But unless the Congress engages in those 
cross-cutting goals and provides feedback regarding the goals 
and metrics on a governmentwide basis, then each agency's 
contribution could be there. So it has a lot of potential, but 
it has to be used----
    Part of the problem is what we have found is there are a 
lot of efforts to try to set performance measures, but even 
when they are performance measures, they are not fully used 
within the Executive Branch or in the Congress. And so there 
needs to be more dialogue and the use of those that exist as 
well as, better measures. There is no question you need more 
measures and better measures. But if you do not use the ones 
you have right now or work to create new ones and set goals, 
nothing is going to happen.
    I gave the example a little bit earlier about the personnel 
security clearances, but Congress there put a hard metric in 
place, that we want these background investigations and 
clearances done within 60 days. It was taking months before. 
And they are beating the goals now in order to do that. But 
that worked in a collaborative fashion, where those goals got 
set. They got set in law. But they had a process in place to be 
able to do it. These areas that have been set in the 14 goals 
right now, provide an adequate opportunity for that kind of 
engagement by the Congress to really sit down and work with the 
agencies.
    We were part of the process that Senators Akaka and 
Voinovich set up in order to help set the goals for security 
clearances, along with the Executive Branch agencies, and then 
we went in and evaluated whether they were meeting the goals. 
So you had a built-in accountability check. So I think that 
provides a lot of good lessons learned on how to tackle these 
cross-cutting goals.
    Chairman Carper. OK. I am way over my time once again. I 
just want to mention this and then kick it back over to Dr. 
Coburn. But when I meet people who have done extraordinary 
things in their life, really successful people from this 
country and other places, I love to ask them, why have you been 
successful, and just to have them lay out why they think they 
are successful. The responses are illuminating and sometimes 
very helpful to me.
    Another question I like to ask is, how do you measure 
success, and that is a question I ask here and in other venues, 
as well. How do you measure success? Too often, and I have 
found in government, particularly the Federal Government, we 
measure the wrong thing. We measure process. We may measure 
inputs. We do not measure outcomes and we do not measure 
results.
    One of the things that we need to do a better job in our 
oversight role is to say, all right, how do we measure success? 
Let us talk about outputs. Let us talk about actually getting 
stuff done. And so you reminded me of that, and I would, having 
said that, yield back to Dr. Coburn.
    Senator Coburn. Mr. Chairman, I am through. I just wanted 
to make one comment.
    Your findings in your report this year talked about the 
National Technical Information Service (NTIS) selling reports 
to other agencies that are free on Google. She is going to put 
a little slide up. Seventy-five percent of everything they give 
to other agencies, you can get free on the Internet.
    Mr. Dodaro. I agree. It does not make sense.
    Senator Coburn. Well, actually, the Department of 
Commerce----
    Mr. Dodaro. I am not going to defend it.
    Senator Coburn. The question is, is the Administration 
doing anything about it?
    Mr. Dodaro. No, not that I am aware of.
    Senator Coburn. And so the answer is, Commerce ought to 
send a note to every one of these agencies saying, all these 
things that you have been getting from us, and paying money 
for, by the way----
    Mr. Dodaro. Right.
    Senator Coburn [continuing]. You can get free on the 
Internet, and here is where you get them. I do not know how 
many people we can save at NTIS, but the fact is, that is 
totally duplicative. It is kind of like the Death Master Files 
problem that we have.
    Mr. Dodaro. Right.
    Senator Coburn. But here, all you have to do is search the 
Internet and you can get it instead of have your agency pay 
another agency----
    Mr. Dodaro. Yes.
    Senator Coburn [continuing]. For information that is free 
out there.
    Mr. Dodaro. But it is a classic case, Dr. Coburn, of when 
something was set up. At the time it was set up, it made sense 
that there was not access and availability, but now there is 
and things just will not change. They need to make the changes. 
So we have made the recommendations. We will try to continue to 
followup on them----
    Senator Coburn. This is the typical Reagan quote. The 
closest thing to eternal life on this earth is a government 
program.
    Mr. Dodaro. That is the case. And many of the ones we are 
pointing out--I do not want to say many, but some of the ones 
we point out were intended to be temporary programs, like the 
direct payments to farmers is one. They complete the task, 
even, in some cases, and then they try to add additional 
areas----
    Senator Coburn. Well, it is like you mentioned on the 
assistance for the auto families.
    Mr. Dodaro. Right.
    Senator Coburn. It does not need to be there anymore.
    Mr. Dodaro. No, it does not, and it could be eliminated. I 
mean, it is not a lot of money. It is a million dollars a year, 
but a million dollars is a million dollars.
    Senator Coburn. A million dollars a year is how you get to 
a billion----
    Mr. Dodaro. Right.
    Senator Coburn [continuing]. And multiple billions is how 
you get to a trillion and----
    Mr. Dodaro. Right. Yes. We appropriate a million at a time. 
We ought to be able to eliminate a million at a time. I mean, 
that is----
    Senator Coburn. Eliminating is a lot easier.
    Mr. Dodaro. Yes. Right.
    Senator Coburn. All right. Thank you, Mr. Chairman, for----
    Mr. Dodaro. One thing, Mr. Chairman. On your question, Dr. 
Coburn--my staff let me know that OMB must consult with this 
Committee on new goals every year in the cross-cutting areas, 
and so they are supposed to establish new ones for next year so 
that the consultation process should really be beginning right 
now. And I am concerned about the leadership gaps over at OMB 
and what that means for the governmentwide efforts that are 
going to occur, whether it is the GPRA Modernization Act, Data 
Center Consolidation, Federal real property. I mean, OMB was 
actively involved in those areas.
    You do not have a Deputy for Management right now. You do 
not have a Comptroller right now. And so that area--and I am 
going to try to outreach to the OMB Director and try to work 
with her, and if the new Deputy for Budget gets put in place. 
But they are going to be focused a lot on the budget process, 
based on my experience. But I am going to try to do my best to 
try to work in that area, but I am concerned about it and I 
just wanted to underscore your concern about it and I think it 
is a valid concern.
    Chairman Carper. When the President nominated Sylvia 
Burwell to be OMB Director, I found out that she worked in the 
White House in the late 1990s and she had been Bob Rubin's 
Chief of Staff. She had been Erskine Bowles' deputy when he was 
Chief of Staff to the President in the second term of President 
Clinton. And I found out that she had, for a couple years, been 
Deputy OMB Director.
    And I called Erskine Bowles and I said, what can you tell 
me about Sylvia Burwell, and he said, ``I have known people 
that have''--she is from West Virginia. He said, ``I have known 
people that are that nice and have interpersonal skills that 
are that good. And,'' he said, ``I have known other people who 
are just really smart, scary smart. And,'' he said, ``I have 
known other people who were just really good at getting things 
done, a lot of things done at once. But I have never known one 
person who does all those things as well as she does.''
    And I think she has great potential, but she has to get a 
really strong team around her and part of that is the 
Administration nominating good people. I think Brian Deese has 
been nominated as the Deputy. I think he is one of those. He 
just nominated a fellow who I just met with this week to be 
head of the regulatory side, the OIRA side. I do not know that 
they have anybody in mind yet for what President Obama 
initially called his Performance Officer, which would be the 
OMB Deputy for Management.
    But I think the Administration has a responsibility to find 
good people, convince good people to go through this nominating 
process. Unfortunately, it is not a pleasant process. When I 
was Governor of Delaware, I was nominated by President Clinton 
to become a member of the Amtrak Board. It was not fun. By the 
end of the process, I said to him, if I had known it was going 
to be this much headache, I would not have agreed to do it. And 
I love trains. I love passenger rail.
    But we do not make it easy. In some cases, when people are 
willing to accept these nominations and go through the process, 
we hold them up for ridicule. They take time away from their 
jobs, their families, and then they get ridiculed in the end. 
It is just almost a poisonous situation, and then we prolong 
these processes for months. No wonder we have these vacancies 
and a lot of acting directors. It is not good if it is a 
Democratic President or a Republican President.
    But there is an opportunity here at OMB for us to help the 
Administration to build a strong team, a team that we can work 
with, that you can work with, and we are determined to do that, 
and we take the next step later today by reporting out the name 
of Brian Deese out of Committee, and hopefully the Budget 
Committee will do the same thing very soon and we will get him 
in place and take it from there.
    If you have some names of people you think that would be 
good, really good for the Administration to consider for the 
management side of OMB, the deputy that deals with the 
management side--I have a couple of ideas, I am sure you do, 
too--please share those names with us and certainly share those 
names with Sylvia Burwell. I think the relationship between the 
two of you, with her and you and our relationship, this is--if 
we are going to actually change the culture, obviously, the 
leadership of the President is important. But these 
relationships are critically important, as well.
    GAO, next steps, and if you can bear with me for about 
another 10 minutes, we will be about ready to wrap it up.
    But just looking ahead, I understand that your 2013 report 
basically completes this 3-year systematic examination across 
the Federal Government to try to identify fragmentation, 
overlap, and duplication. And let me just ask you if, looking 
ahead for GAO, what GAO's plans for next steps and for future 
work on these topics that you have identified as you try to 
fulfill your statutory mandate going forward.
    Mr. Dodaro. Yes. First, we will continue to look for 
opportunities and do individual reviews in targeted areas. We 
have completed, as you point out, our commitment to make the 
first 3 years, looking for all major areas across the Federal 
Government, but there are still areas that we think bear a 
little bit of scrutiny, so we will be targeting those areas 
over the next year and doing regular reviews.
    Second, we will be providing an annual report, which the 
law requires, that would both highlight new areas that we have 
identified as well as providing a report card or status report 
on all the previous areas that we have recommended.
    The other thing that we have not started yet, and I would 
like to, but it depends on how our resources end up in the 
appropriation process, is looking at overlap and duplication 
between Federal-State levels and perhaps local levels. I have 
had some conversations with the State auditors and local 
auditors and they think that there are some possibilities 
there, too. So we would be looking at that.
    But, unfortunately, right now, our staffing level is the 
lowest it has been since 1935. We are down about 14 percent 
from 2010 levels. And so we just had our appropriation hearing 
yesterday on the Senate side and we have had it on the House 
side, so I have asked for some of that staffing to be restored 
because I think we provide a good return on the investment for 
the Congress and the country. So I am hopeful that will be the 
case.
    Chairman Carper. Who held that hearing?
    Mr. Dodaro. Senator Shaheen and Ranking Member Senator 
Hoeven was there, along with Senator Boozman is on that 
Committee.
    Chairman Carper. OK. Thank you.
    Mr. Dodaro. Senator Begich is also on that Committee, and I 
am going to be talking with him.
    Chairman Carper. Actually, we have cloned him so he is 
filling in any number of places. [Laughter.]
    Mr. Dodaro. Yes. So those are our next steps.
    Chairman Carper. All right. Good. Two more questions, if I 
could. The first deals with fragmentation versus overlap versus 
duplication. In your 2013 report, GAO created visual--here we 
go, you can see it on this chart\1\--visual representations--I 
like to say a picture is worth a thousand words, but this is a 
pretty good picture here to describe when programs are 
fragmented, when there is overlap, and where there is actually 
duplication. I find these visuals to be helpful. Fragmentation 
on the left, overlap in the middle, duplication on the right.
---------------------------------------------------------------------------
    \1\ The chart referenced by Senator Carper appears in the Appendix 
on page 40.
---------------------------------------------------------------------------
    But let us, if we could, just take a moment and look at 
fragmentation, which is on the left. In our Nation's biodefense 
efforts, numerous agencies have a unique stake, as you know, in 
biosurveillance. Specifically, the Agriculture Department 
monitors plant and animal disease and the Centers for Disease 
Control (CDC) monitors human disease. In this case, the 
appropriate solution is not for Congress to eliminate all the 
programs but one, but rather for these agencies to try to 
strive to achieve better coordination among the programs.
    An example of what was potentially overlap is in job 
training. One program might help veterans. A different program 
might help disabled folks. And while these programs might have 
similar goals, separate programs might make sense--I think they 
probably do--given the different needs of each customer base. 
And, once again, I believe the solution to solving the problem 
of overlap is not necessarily to eliminate all but one program 
or to consolidate the different programs into one large 
program. Rather, we need to determine which programs are 
performing the best, where there is unnecessary duplication, 
and how best to allocate the resources.
    So with that as a context, let me just ask, to what extent 
would you say that the issues identified by GAO in these three 
reports fall into each of these different buckets, the 
fragmentation bucket, the overlap bucket, and the duplication?
    Mr. Dodaro. Yes. I would say we find most of the areas in 
the overlap and fragmentation area as opposed to the exact 
duplication area, and that is because we have been limited in 
our ability to find the duplication.
    The way we look at this, Senator, is that we see 
fragmentation and overlap being harbingers of duplication if 
not addressed, and we do not put anything in the fragmentation 
area that we do not think has inefficiencies over time. But the 
overlap is where we have identified the most areas. Where we 
have identified duplication, say, in the Catfish Office and 
others, we have made recommendations to eliminate it. But I 
think there is probably more duplication than we were able to 
exactly hone in on because of limitations in performance 
information and cost information of the agencies.
    For example, we identified over 600 different programs in 
the energy area, energy efficiencies, and we could not--there 
was not enough information to find out how many of those 
programs were duplicative. They did not keep the information 
necessary for us to be able to do that. So we focused on the 
wind area, there are 82 programs focused on using wind as an 
alternative energy source, and in 18 percent of those cases, we 
could not find anything out because they did not separate out 
the expenditures for wind versus other types of alternative 
energy. Then we did find seven of those programs, there was 
duplication. Now, the President has proposed to eliminate one 
of those seven programs in the budget submission. That is the 
way we have looked at it.
    So I think there is more potential in duplication than what 
we have showed, but we have not been able to have the data 
necessary to do that.
    Chairman Carper. Good. Last question, and this one deals 
with coordination of research and development (R&D) at the 
Department of Homeland Security. In this year's report, you 
looked at R&D investments at the Department of Homeland 
Security and found a lack of guidance that apparently has led 
to potential overlap and fragmentation. One of the problems 
that GAO found was that the Department of Homeland Security and 
its Science and Technology (S&T) Directorate had not developed 
a policy defining who was responsible for coordinating research 
and development.
    I do not know if you could take a shot at this, but could 
you elaborate maybe on the root causes of the problems at the 
Department of Homeland Security and what the Department and 
this Committee ought to be doing to address these problems?
    Mr. Dodaro. Yes. I will ask Cathleen Berrick, who is the 
Managing Director of our Homeland Security and Justice areas, 
to elaborate, but part of the problem is we found six different 
components within the Department were letting these contracts. 
So you had a diffusion of responsibilities within the 
Department. I think there was a lot of urgency in the sense 
after September 11 to get contracts let during that period of 
time. Part of the problem was the formulation and integration 
of the Department as a new entity over a period of years. These 
were some of the reasons that led to the problem, and having an 
integrated management structure, which was one of the reasons 
we had put them on the High-Risk List.
    But Cathy can elaborate more specifically.
    Chairman Carper. Good. Ms. Berrick.
    Ms. Berrick. Yes. I think one of the core causes relates 
back to the High-Risk designation that GAO has related to the 
management of the Department, and basically, we said that DHS 
needs to put more emphasis on strengthening its core management 
functions, including developing policies and procedures to 
strengthen those areas, and we are talking about acquisition 
management and financial management, information technology 
management, but also to coordinate those functions throughout 
the Department.
    In the R&D area, there are three offices within DHS that 
have statutory authorities related to R&D. That is the S&T 
Office, it is the Coast Guard, and it is the Domestic Nuclear 
Detection Office (DNDO). However, other components within DHS 
legally are allowed to engage in R&D as long as they coordinate 
that R&D through the S&T Office.
    The problem that has happened over the years is that R&D 
has not been coordinated, and so you have situations where 
multiple components are pursuing similar R&D efforts without 
coordinating those. One example is there were five separate 
contracts to explore R&D for advanced algorithms for explosive 
detection. Four were with S&T and one was with TSA. Those were 
not coordinated.
    Another negative effect of this lack of coordination is 
that DHS does not have visibility over how much they are 
spending related to R&D. We looked at expenditures for R&D for 
fiscal year 2011, where in that year DHS had about $750 million 
in outlays for R&D. We found another $255 million that DHS was 
not aware of that they had spent on R&D.
    So I think it gets back to this High-Risk Area of 
strengthening the management of the Department. Part of that is 
coordinating these management functions throughout the 
Department and making sure that the policies are being 
implemented consistently.
    Chairman Carper. All right. Good. Thanks.
    I am going to--this will be my last point, my last question 
on this, but I just want to make sure I understand it. Who do 
you think--and Cathy, you can stay at the table, if you would--
but who do you think should have this responsibility for 
coordinating R&D at the Department? I just want to make sure I 
understand it. Who do you think should be responsible for 
coordinating R&D at the Department?
    Ms. Berrick. The S&T Office, has the legal responsibility 
to do that. They have not been doing that as effectively as 
they should. They have some efforts where they will have 
agreements with specific components for certain R&D efforts. 
They also have what is called integrated product teams, but we 
think more needs to be done. When you talk to the components 
within DHS, the majority of the components feel that it is not 
clear how they are supposed to coordinate related to R&D.
    So we think S&T needs to put out new policies that are very 
clear and explicit with the components on what the expectations 
are related to coordination, put some performance measures in 
place and follow through and make sure that these R&D efforts 
actually are being coordinated. S&T agreed with those 
recommendations.
    Chairman Carper. OK.
    Mr. Dodaro. Yes. In addition to that, I would suggest that 
the Under Secretary for Management, through the budget 
formulation process, make this crystal clear so it is visible.
    For example, Cathy and her team identified $225 million of 
spending in this area that was not visible to the Department. 
So while S&T has a responsibility for policies I think the 
Under Secretary for Management can create tools to reinforce 
that and create transparency and accountability for department-
level management to support them. It is always difficult for 
these entities to deal with their peers across the department 
unless they have support from department leadership.
    Chairman Carper. Would that be support from people like 
former Deputy Secretary Jane Holl Lute, who has just stepped 
down?
    Mr. Dodaro. Yes.
    Chairman Carper. She just stepped down.
    Mr. Dodaro. Yes. It might--it will not help now.
    Chairman Carper. Yes, I know. I think she--Tom Coburn and I 
are big admirers of her.
    Mr. Dodaro. Yes.
    Chairman Carper. And I think she took very seriously her 
responsibilities with respect to management of the Department, 
as does the Secretary, and we regret her departure. I think she 
has gone back to work in the United Nations for a while on 
cyber issues.
    But we are going to meet later today with Rand Beers, who 
is--on an interim basis, he is the Acting Deputy Secretary. And 
as I said earlier, it is like one of, I think, six, a half-
dozen, senior positions that are in Homeland Security that are 
held by people that are in acting status.
    But my understanding is Jane Holl Lute, when she has 
testified before us as Deputy Secretary of Homeland Security, 
she took very seriously--I think the Department takes very 
seriously--the High-Risk List that GAO promulgates every other 
year. And my understanding is she has actually come and met 
with you and just gone through the list `to see where they are 
making progress, where they are not, maybe some areas they 
think that you all need to rethink what you are doing. Was that 
helpful to them and to you?
    Mr. Dodaro. Oh, definitely. I mean, we had many discussions 
over the time she was there, and initially, they had questions 
about the specific things we thought they needed to do to be 
able to get off the list. So we sent a letter over--this was 
back in 2010, I believe--about a 29-page letter that spelled 
out everything that needed to be done. I think that was a 
breakthrough in our discussions and she reacted positively to 
that. They put a plan together.
    After that, Rafael Borras came on, and they have developed 
more detailed plans. And now, on a regular basis, Cathy meets 
with them, and I have met with Jane. I met with the Secretary. 
I met with Rand Beers when he was head of the transition team 
over there before. And so we have had an ongoing dialogue that 
I think has really been very helpful and they have made good 
progress as a result of that.
    I try to do that with every department and agency that is 
on the High-Risk List, and our team, to be able to do that. And 
then we also have had these joint meetings with OMB that I 
mentioned earlier, with the agencies on the list, and we had 
some of those with the Department of Homeland Security, as 
well. And Jeff Zients was very helpful in that regard, as well 
as Jane.
    Chairman Carper. OK. Well, we have probably taken enough of 
your time today. I just want to conclude by giving you a chance 
to maybe offer a thought or two in closing, something that we 
talked about, something you would like to just underline, put 
an exclamation point after, reemphasize, and then I will give 
the benediction and we can think about going to have some 
lunch.
    Mr. Dodaro. OK. I would just close with two things. One, I 
think that the congressional oversight in these areas is 
pivotal to making progress in addressing the overlap and 
duplication area. I would encourage you to think outside the 
box and working with other Committees to bring about positive 
change in this area, and also with the Budget and Appropriation 
Committees, who have broader jurisdiction over some of these 
areas.
    And then, second, I would say that the successful 
implementation of the GPRA Modernization Act, will not happen 
without this Committee's sustained congressional oversight over 
the years. I think it is pivotal that begin now and occur on a 
sustained basis, particularly in a number of targeted areas, 
both on the cross-cutting governmentwide goals that are set in 
place and also having agencies identify fully who they should 
be dealing with over time. Also by making sure OMB is playing 
an appropriate role in assuring that this is implemented 
appropriately on a cross-cutting basis, not just by the Deputy 
for Management and the management team, but through the budget 
process. I think the budget process offers a powerful tool for 
dealing with these issues and OMB should use metrics and 
measures in deciding how to propose how resources be allocated 
to the Congress to begin with.
    So if you get that process in place and you get 
congressional oversight, then I think we will have a fighting 
chance to make much more headway in these areas.
    Chairman Carper. Good. All right. This has been 
illuminating and enjoyable, and again, we are just very 
grateful for everyone, including the people that are here with 
you--Cathy, thank you--and others who are not here at GAO.
    I have taken a note that I need to talk to Senator Shaheen 
and Senator Hoeven, and I will try to do that later today.
    Going back to the Department of Homeland Security, one of 
the, I think, areas maybe in the President's budget, I think 
they may have actually trimmed back the money that the 
President is proposing for management in DHS, including at the 
under secretary level, and we do not think that is a smart 
decision. So, hopefully, we can take the invitation from 
Senator Landrieu, who chairs the Appropriations Subcommittee 
for Homeland Security, and try to get that number back to a 
better place.
    But this hearing record will remain open for 15 days--that 
is until June 6 at 5 p.m.--for the submission of statements and 
questions for the record.
    I want to thank our staffs for helping to prepare for this 
and for your willingness to sit in for yourself and Danny 
Werfel here today and do an admirable job. I guess you had 
Cathy's help. But you did an admirable job pinch-hitting for 
him, as well.
    With that, this hearing is adjourned. Thanks so much.
    [Whereupon, at 11:53 a.m., the Committee was adjourned.]]

                            A P P E N D I X

                              ----------                              

[GRAPHIC] [TIFF OMITTED] 81658.001

[GRAPHIC] [TIFF OMITTED] 81658.002

[GRAPHIC] [TIFF OMITTED] 81658.003

[GRAPHIC] [TIFF OMITTED] 81658.004

[GRAPHIC] [TIFF OMITTED] 81658.005

[GRAPHIC] [TIFF OMITTED] 81658.006

[GRAPHIC] [TIFF OMITTED] 81658.007

[GRAPHIC] [TIFF OMITTED] 81658.008

[GRAPHIC] [TIFF OMITTED] 81658.009

[GRAPHIC] [TIFF OMITTED] 81658.010

[GRAPHIC] [TIFF OMITTED] 81658.011

[GRAPHIC] [TIFF OMITTED] 81658.012

[GRAPHIC] [TIFF OMITTED] 81658.013

[GRAPHIC] [TIFF OMITTED] 81658.014

[GRAPHIC] [TIFF OMITTED] 81658.015

[GRAPHIC] [TIFF OMITTED] 81658.016

[GRAPHIC] [TIFF OMITTED] 81658.017

[GRAPHIC] [TIFF OMITTED] 81658.018

[GRAPHIC] [TIFF OMITTED] 81658.019

[GRAPHIC] [TIFF OMITTED] 81658.020

[GRAPHIC] [TIFF OMITTED] 81658.021

[GRAPHIC] [TIFF OMITTED] 81658.022

[GRAPHIC] [TIFF OMITTED] 81658.023

[GRAPHIC] [TIFF OMITTED] 81658.024

[GRAPHIC] [TIFF OMITTED] 81658.025

[GRAPHIC] [TIFF OMITTED] 81658.026

[GRAPHIC] [TIFF OMITTED] 81658.027

[GRAPHIC] [TIFF OMITTED] 81658.028

[GRAPHIC] [TIFF OMITTED] 81658.029

[GRAPHIC] [TIFF OMITTED] 81658.030

[GRAPHIC] [TIFF OMITTED] 81658.031

[GRAPHIC] [TIFF OMITTED] 81658.032

[GRAPHIC] [TIFF OMITTED] 81658.033

[GRAPHIC] [TIFF OMITTED] 81658.034

[GRAPHIC] [TIFF OMITTED] 81658.035

[GRAPHIC] [TIFF OMITTED] 81658.036

[GRAPHIC] [TIFF OMITTED] 81658.037

[GRAPHIC] [TIFF OMITTED] 81658.038

[GRAPHIC] [TIFF OMITTED] 81658.039

[GRAPHIC] [TIFF OMITTED] 81658.040

[GRAPHIC] [TIFF OMITTED] 81658.041

[GRAPHIC] [TIFF OMITTED] 81658.042

[GRAPHIC] [TIFF OMITTED] 81658.043

[GRAPHIC] [TIFF OMITTED] 81658.044

[GRAPHIC] [TIFF OMITTED] 81658.045

[GRAPHIC] [TIFF OMITTED] 81658.046

[GRAPHIC] [TIFF OMITTED] 81658.047

[GRAPHIC] [TIFF OMITTED] 81658.048

[GRAPHIC] [TIFF OMITTED] 81658.049

[GRAPHIC] [TIFF OMITTED] 81658.050

[GRAPHIC] [TIFF OMITTED] 81658.051

[GRAPHIC] [TIFF OMITTED] 81658.052

[GRAPHIC] [TIFF OMITTED] 81658.053

[GRAPHIC] [TIFF OMITTED] 81658.054

                                 <all>

</pre></body></html>
